Alan E. Schoenfeld

April 22, 2021

+1 212 937 7294 (t)
+1 212 230 8888 (f)
alan.schoenfeld@wilmerhale.com

VIA HAND DELIVERY
& ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Anna Valentine, Warden v. Johnny Phillips, No. 20-1246

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was docketed on
March 9, 2021. On March 11, 2021, respondent Johnny Phillips filed a waiver of his right to
respond to the petition. On March 29, 2021, the Court requested a response to the petition,
which is currently due on April 28, 2021. On behalf of Mr. Phillips and pursuant to Rule 30.4,
we respectfully request a 30-day extension of time, to and including May 28, 2021, in which to
file any response to the petition.
We are requesting an extension due to the press of other business and the disruption
caused by the ongoing COVID-19 pandemic. This is the first request for an extension.
Thank you for your consideration of this request.

Respectfully submitted,

/s/ Alan E. Schoenfeld
Alan E. Schoenfeld

cc:

Courtney J. Hightower, Counsel of Record for Petitioner (by email)

